No. 19-54

In the Supreme Court of the United States
KAROLYN GIVENS, et al.,
Petitioners,
v.
MOUNTAIN VALLEY PIPELINE,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fourth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI
CURIAE OWNERS’ COUNSEL OF AMERICA, PENNEAST NEW JERSEY
PROPERTY OWNERS, INSTITUE FOR JUSTICE, AND CATO INSTITUTE IN
SUPPORT OF PETITIONERS in the above-captioned case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text, and 10 point for the footnotes, and this brief
contains 5,979 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 6, 2019.
__________________________________
Robert H. Thomas
Counsel of Record
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Amici Curiae

